      DEPARTMENT OF HEALTH & HUMAN SERVICES                                 Office of Inspector General

                                                                           Washington, D.C. 20201




June 9, 2010

TO:            Marilyn Tavenner
               Acting Administrator and Chief Operating Officer
               Centers for Medicare & Medicaid Services


FROM:          /Daniel R. Levinson/
               Inspector General


SUBJECT:       Nationwide Review of Inpatient Rehabilitation Facilities’ Transmission of Patient
               Assessment Instruments for Calendar Years 2006 and 2007 (A-01-09-00507)


The attached final report provides the results of our review of inpatient rehabilitation facilities’
transmission of patient assessment instruments for calendar years 2006 and 2007.

Section 8L of the Inspector General Act, 5 U.S.C. App., requires that the Office of Inspector
General (OIG) post its publicly available reports on the OIG Web site. Accordingly, this report
will be posted at http://oig.hhs.gov.

Please send us your final management decision, including any action plan, as appropriate, within
60 days. If you have any questions or comments about this report, please do not hesitate to call
me, or your staff may contact George M. Reeb at (410) 786-7104 or through email at
George.Reeb@oig.hhs.gov. Please refer to report number A-01-09-00507 in all correspondence.


Attachment
 Department of Health & Human Services
            OFFICE OF
       INSPECTOR GENERAL




NATIONWIDE REVIEW OF INPATIENT
   REHABILITATION FACILITIES’
    TRANSMISSION OF PATIENT
 ASSESSMENT INSTRUMENTS FOR
 CALENDAR YEARS 2006 AND 2007




                       Daniel R. Levinson
                        Inspector General

                           June 2010
                         A-01-09-00507
                        Office of Inspector General
                                          http://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health & Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices


    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at http://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as
 questionable, a recommendation for the disallowance of costs
 incurred or claimed, and any other conclusions and
 recommendations in this report represent the findings and
 opinions of OAS. Authorized officials of the HHS operating
 divisions will make final determination on these matters.
                                  EXECUTIVE SUMMARY

BACKGROUND

Under the prospective payment system for inpatient rehabilitation facilities (IRF), the Centers for
Medicare & Medicaid Services (CMS) establishes a prospective payment rate for each of 92
distinct case-mix groups. Medicare Part A fiscal intermediaries, under contract with CMS, use
the Fiscal Intermediary Shared System (FISS) to process and pay claims submitted by IRFs.

To administer the prospective payment system, CMS requires IRFs to electronically transmit a
patient assessment instrument for each IRF stay to CMS’s National Assessment Collection
Database (the Database), which the Iowa Foundation for Medical Care (the Foundation)
maintains. Each IRF must report the date that it transmitted the instrument to the Database on
the claim that it submits to the fiscal intermediary. If an IRF transmits the instrument more than
27 calendar days from (and including) the beneficiary’s discharge date, the IRF’s payment rate
for the applicable case-mix group should be reduced by 25 percent.

Our audit covered 10,338 claims totaling $166 million that were at high risk of having been
overpaid because IRFs had transmitted the patient assessment instruments to the Database after
the 27-day deadline.

OBJECTIVE

Our objective was to determine whether IRFs received reduced case-mix-group payments for
claims with patient assessment instruments that were transmitted to the Database more than 27
days after the beneficiaries’ discharges.

SUMMARY OF FINDINGS

IRFs did not always receive reduced case-mix-group payments for claims with patient
assessment instruments that were transmitted to the Database more than 27 days after the
beneficiaries’ discharges. Of the 200 claims that we sampled, which had dates of service in
calendar years 2006 and 2007, 8 were either canceled or paid correctly. Our findings on the 192
remaining claims follow:

   •   IRFs did not receive reduced case-mix-group payments for 113 claims with patient
       assessment instruments that were transmitted to the Database after the 27-day deadline.
       Overpayments occurred because IRF and Medicare payment controls were inadequate.
       Based on our sample results, we estimated that fiscal intermediaries made a total of
       $20.2 million in overpayments to IRFs.

   •   IRFs initially transmitted patient assessment instruments to the Database within the 27-
       day deadline for 79 claims. However, IRFs subsequently retransmitted these instruments
       after the deadline to correct errors in the initial transmissions. Because CMS’s written
       guidance does not address the applicability of the 25-percent penalty in these situations,
       we could not determine whether the claims should have received reduced case-mix-group

                                                 i
       payments. Based on our sample results, we estimated that fiscal intermediaries may have
       made an additional $19 million in overpayments to IRFs.

RECOMMENDATIONS

We recommend that CMS:

   •   adjust the 113 sampled claims for overpayments of $424,141;

   •   determine whether any of the $323,504 potential payment penalty should apply to the 79
       sampled claims with modified patient assessment instruments that were transmitted after
       the 27-day deadline;

   •   immediately reopen the 10,138 nonsampled claims, review our information on these
       claims (which have overpayments estimated at $19.8 million and set-aside payments
       estimated at $18.7 million), and recover any overpayments;

   •   alert IRFs to the importance of reporting the correct patient assessment instrument
       transmission dates on their claims;

   •   consider establishing a process that would allow the FISS to interface with the Database
       to identify, on a prepayment basis, IRF claims with incorrect patient assessment
       instrument transmission dates;

   •   ensure that fiscal intermediaries (1) have access to Foundation reports that document late
       or missing patient assessment instrument transmissions and (2) use these reports to
       conduct periodic postpayment reviews;

   •   revise the FISS edit to count the discharge date as day 1 in the 27-day counting sequence
       used to apply the 25-percent payment penalty; and

   •   establish written policies to address whether patient assessment instruments that are
       retransmitted after the 27-day deadline to correct errors in the initial timely transmissions
       are subject to the 25-percent payment penalty.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
steps that it had taken or planned to take to address the issues we identified. CMS’s comments,
except for technical comments, are included as Appendix C.




                                                 ii
                                                  TABLE OF CONTENTS

                                                                                                                              Page

INTRODUCTION..............................................................................................................1

          BACKGROUND .....................................................................................................1
              The Prospective Payment System for Inpatient Rehabilitation
               Facilities ....................................................................................................1
              Patient Assessment Instruments ...................................................................1

          OBJECTIVE, SCOPE, AND METHODOLOGY ...................................................2
               Objective ......................................................................................................2
               Scope ............................................................................................................2
               Methodology ................................................................................................2

FINDINGS AND RECOMMENDATIONS ....................................................................3

          PROGRAM REQUIREMENTS ..............................................................................4

          LATE TRANSMISSION OF PATIENT ASSESSMENT
            INSTRUMENTS.................................................................................................4
               Incorrect Transmission Dates on Claims .....................................................4
               Reported Transmission Dates 1 Day Past Deadline ....................................5
               Causes of Overpayments..............................................................................5

          MODIFIED PATIENT ASSESSMENT INSTRUMENTS .....................................6

          PAYMENT ESTIMATES .......................................................................................6

          RECOMMENDATIONS .........................................................................................6

          CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS ............7

APPENDIXES

          A: SAMPLING DESIGN AND METHODOLOGY

          B: SAMPLE RESULTS AND ESTIMATES

          C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS




                                                                    iii
                                                  INTRODUCTION

BACKGROUND

The Prospective Payment System for Inpatient Rehabilitation Facilities

Inpatient rehabilitation facilities (IRF) provide rehabilitation for patients who require a hospital
level of care, including a relatively intense rehabilitation program and an interdisciplinary,
coordinated team approach to improve their ability to function. Section 1886(j) of the Social
Security Act (the Act) established a Medicare prospective payment system for IRFs. The
Centers for Medicare & Medicaid Services (CMS), which administers the Medicare program,
implemented the prospective payment system for cost-reporting periods beginning on or after
January 1, 2002. Under the system, CMS establishes a Federal prospective payment rate for
each of 92 distinct case-mix groups. The assignment to a case-mix group is based on the
beneficiary’s clinical characteristics and expected resource needs.

During our audit period (calendar years (CY) 2006 and 2007), CMS contracted with Medicare
Part A fiscal intermediaries to process and pay claims submitted by institutional providers, including
IRFs. 1 Fiscal intermediaries use the Fiscal Intermediary Shared System (FISS) for claim processing.

Patient Assessment Instruments

Section 1886(j)(2)(D) of the Act requires IRFs to transmit sufficient patient data to allow CMS to
administer the IRF prospective payment system. These data are necessary to assign beneficiaries
to the appropriate case-mix groups, to monitor the effects of the IRF prospective payment system
on patient care and outcomes, and to determine whether adjustments to the case-mix groups are
warranted.

To meet its data needs, CMS requires IRFs to electronically transmit a patient assessment
instrument for each IRF stay to CMS’s National Assessment Collection Database (the Database),
which the Iowa Foundation for Medical Care (the Foundation) maintains. 2 Each IRF must report
the date that it transmitted the patient assessment instrument to the Database on the claim that it
submits to the fiscal intermediary. If an IRF transmits the patient assessment instrument more
than 27 calendar days from (and including) the beneficiary’s discharge date, the IRF’s payment
rate for the applicable case-mix group should be reduced by 25 percent.




1
 Effective October 1, 2005, the Medicare Prescription Drug, Improvement, and Modernization Act of 2003,
P.L. No. 108-173, amended certain sections of the Act, including section 1842(a), to require that Medicare
administrative contractors replace fiscal intermediaries by October 2011.
2
 CMS contracts with the Foundation, which specializes in health care quality improvement and medical information
management, to store and manage IRF patient assessment data.

                                                        1
OBJECTIVE, SCOPE, AND METHODOLOGY

Objective

Our objective was to determine whether IRFs received reduced case-mix-group payments for
claims with patient assessment instruments that were transmitted to the Database more than 27
days after the beneficiaries’ discharges.

Scope

Nationwide, IRFs submitted a total of 781,708 claims valued at $11.9 billion with dates of service
in CYs 2006 and 2007. Our audit covered 10,338 claims totaling $166 million that were at high
risk of having been overpaid because IRFs had transmitted the patient assessment instruments to
the Database after the 27-day deadline.

Our objective did not require an understanding or assessment of the complete internal control
structures of IRFs, CMS, the fiscal intermediaries, or the Foundation. Therefore, we limited our
review at IRFs to the controls related to reporting patient assessment instrument transmission dates
on Medicare claims. We limited our review at CMS, selected fiscal intermediaries, and the
Foundation to the controls related to preventing or detecting Medicare overpayments to IRFs for
claims with patient assessment instruments that were transmitted to the Database after the 27-day
deadline.

Our fieldwork consisted of contacting IRFs nationwide and visiting four IRFs in Florida and
Massachusetts. We also contacted three fiscal intermediaries and visited the Foundation in Des
Moines, Iowa. We conducted our fieldwork from March through June 2009.

Methodology

To accomplish our objective, we:

   •    reviewed applicable Federal laws, regulations, and guidance;

   •    interviewed officials of CMS, three fiscal intermediaries, and the Foundation to obtain an
        understanding of edits in the FISS and other controls intended to prevent or detect
        Medicare overpayments to IRFs;

   •    extracted IRF paid claim data from CMS’s National Claims History file for CYs 2006
        and 2007;

   •    obtained from the Foundation a database of all patient assessment instruments for claims
        with dates of service in CYs 2006 and 2007;

   •    developed a computer match between the National Claims History file and the Database
        that identified 10,338 claims:


                                                2
           o 8,800 claims with patient assessment instrument transmission dates that did not
             match the late dates on which IRFs transmitted the instruments to the Database
             and

           o 1,538 claims with patient assessment instrument transmission dates that were
             exactly 28 days from (and including) the beneficiaries’ discharge dates;

   •   selected a stratified random sample of 200 claims from the 10,338 claims (Appendix A);

   •   reviewed data from CMS’s Common Working File for the 200 sampled claims to validate
       the results of our computer match and to verify that the selected claims had not been
       canceled;

   •   contacted representatives from the 142 IRFs that submitted the 200 sampled claims to
       confirm the overpayments and to determine the underlying causes of noncompliance with
       Medicare requirements;

   •   calculated the correct payments for our sampled claims by reducing the prospective
       payment rate for the applicable case-mix group by 25 percent;

   •   estimated the total value of overpayments and the amount set aside for CMS review
       based on our sample results (Appendix B); and

   •   discussed the results of our review with CMS.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objective.

                         FINDINGS AND RECOMMENDATIONS

IRFs did not always receive reduced case-mix-group payments for claims with patient
assessment instruments that were transmitted to the Database more than 27 days after the
beneficiaries’ discharges. Of the 200 claims that we sampled, which had dates of service in
CYs 2006 and 2007, 8 were either canceled or paid correctly. Our findings on the 192 remaining
claims follow:

   •   IRFs did not receive reduced case-mix-group payments for 113 claims with patient
       assessment instruments that were transmitted to the Database after the 27-day deadline.
       Overpayments occurred because IRF and Medicare payment controls were inadequate.
       Based on our sample results, we estimated that fiscal intermediaries made a total of
       $20.2 million in overpayments to IRFs.



                                               3
   •   IRFs initially transmitted patient assessment instruments to the Database within the 27-
       day deadline for 79 claims. However, IRFs subsequently retransmitted these instruments
       after the deadline to correct errors in the initial transmissions. Because CMS’s written
       guidance does not address the applicability of the 25-percent penalty in these situations,
       we could not determine whether the claims should have received reduced case-mix-group
       payments. Based on our sample results, we estimated that fiscal intermediaries may have
       made an additional $19 million in overpayments to IRFs.

PROGRAM REQUIREMENTS

Pursuant to 42 CFR § 412.614, IRFs must electronically transmit to the Database timely,
complete, and accurate encoded data from the patient assessment instrument for each Medicare
Part A beneficiary. In addition, pursuant to 42 CFR § 412.610(e), encoded patient assessment
data must accurately reflect the beneficiary’s clinical status at the time of the patient assessment.
Federal regulations do not define clinical status.

CMS guidance in Transmittal A-01-131, dated November 1, 2001, elaborates on the requirement
for timely transmission of the patient assessment instrument set forth in 42 CFR § 412.614(c)
and (d). The guidance states that an IRF must transmit patient assessment instrument data to the
Database by the 17th calendar day from the date of the beneficiary’s discharge. If the actual
transmission date is more than 10 calendar days from the mandated transmission date, the patient
assessment instrument is considered late and the IRF’s payment rate for the applicable case-mix
group should be reduced by 25 percent. Therefore, if the IRF transmits the patient assessment
instrument more than 27 calendar days from the discharge date, with the discharge date itself
starting the counting sequence, the 25-percent penalty should be applied.

CMS’s written guidance does not address the applicability of the 25-percent penalty when the
initial timely transmission of a patient assessment instrument that contains patient status errors is
followed by a second untimely transmission of a corrected version.

Additional CMS guidance in Transmittal 291, dated August 27, 2004, states that for a discharge
on or after October 1, 2004, the IRF must record the date of the patient assessment instrument
transmission in the “Service Date” field of the claim.

LATE TRANSMISSION OF PATIENT ASSESSMENT INSTRUMENTS

Contrary to Medicare regulations, IRFs did not receive reduced case-mix-group payments for
113 sampled claims with patient assessment instruments that were transmitted to the Database
more than 27 days after the beneficiaries’ discharges. These IRFs received overpayments
totaling $424,141.

Incorrect Transmission Dates on Claims

IRFs reported timely patient assessment instrument transmission dates on 80 of the 113 overpaid
claims, but the instruments were actually transmitted to the Database after the 27-day deadline.
CMS uses the dates that IRFs report on their claims to determine compliance with the timely

                                                  4
filing requirement. As a result, fiscal intermediaries made full case-mix-group payments for
these claims rather than payments that were reduced by the 25-percent payment penalty. The 80
claims resulted in Medicare overpayments totaling $288,926.

Reported Transmission Dates 1 Day Past Deadline

For 33 of the 113 overpaid claims, IRFs reported patient assessment instrument transmission
dates that were 1 day late; that is, the claims indicated transmission on the 28th day. For 28 of
these claims, the reported transmission dates on the claims accurately reflected the dates that the
IRFs transmitted the patient assessment instruments to the Database. For the remaining 5 claims,
the reported transmission dates on the claims were not accurate; i.e., the transmissions to the
Database actually occurred more than 28 days after the beneficiaries’ discharges. Because fiscal
intermediaries erroneously made full case-mix-group payments instead of reduced payments for
the 33 claims, IRFs received a total of $135,215 in overpayments.

Causes of Overpayments

Inadequate Controls at Inpatient Rehabilitation Facilities

IRFs did not have adequate controls to ensure that the patient assessment instrument
transmission dates reported on their claims matched the actual dates on which the IRFs
transmitted the instruments to the Database. Specifically, IRF officials informed us that clinical
staff who transmitted patient assessment instruments to the Database did not always effectively
communicate this information to billing staff who recorded the dates on the claims. Instead, the
billing staff often recorded the beneficiaries’ discharge dates as the patient assessment instrument
transmission dates. Additionally, some IRFs’ clinical staff did not enter the transmission dates in
the IRFs’ internal reporting systems, causing the systems to default to the beneficiaries’
discharge dates. Because the IRFs’ billing systems used information from the internal reporting
systems, the beneficiaries’ discharge dates were incorrectly entered on some claims.

Inadequate Medicare Payment Controls

Medicare prepayment controls were not designed to compare the patient assessment instrument
transmission dates on claims paid by the FISS with the actual dates on which IRFs transmitted
the instruments to the Database. In addition, CMS did not provide fiscal intermediaries with
access to reports produced by the Foundation that document late or missing patient assessment
instrument transmissions. Fiscal intermediaries could have used these reports to conduct
periodic postpayment reviews. Finally, FISS payment edits were designed to identify patient
assessment instruments that were transmitted to the Database more than 27 days from, but not
including, the discharge dates. Thus, these edits were unable to identify patient assessment
instruments that were transmitted to the Database 1 day late because the edits began the 27-day
counting sequence on the day after the discharge rather than the day of the discharge.




                                                 5
MODIFIED PATIENT ASSESSMENT INSTRUMENTS

For 79 sampled claims, IRFs initially transmitted the patient assessment instruments to the
Database by the 27-day deadline. However, IRFs subsequently retransmitted these instruments
after the 27-day deadline to correct errors in the initial transmissions. Because Federal
regulations do not define clinical status, we could not determine whether clinical status was
accurately reflected in the initial transmissions. Furthermore, CMS’s written guidance does not
address the applicability of the 25-percent penalty to claims with late retransmitted patient
assessment instruments. Therefore, we are setting these claims aside for CMS to determine
whether the claims should have received reduced case-mix-group payments. The potential
payment penalty associated with the 79 claims is $323,504.

PAYMENT ESTIMATES

Based on our sample results, we estimated that for services provided in CYs 2006 and 2007,
fiscal intermediaries made a total of $20.2 million in overpayments to IRFs for claims that
should have been reduced by the 25-percent penalty because the associated patient assessment
instruments were transmitted to the Database more than 27 days after the beneficiaries’
discharges. We also estimated that fiscal intermediaries may have made as much as an
additional $19 million in overpayments to IRFs for claims with modified patient assessment
instruments that were transmitted after the 27-day deadline.

RECOMMENDATIONS

We recommend that CMS:

   •   adjust the 113 sampled claims for overpayments of $424,141;

   •   determine whether any of the $323,504 potential payment penalty should apply to the 79
       sampled claims with modified patient assessment instruments that were transmitted after
       the 27-day deadline;

   •   immediately reopen the 10,138 nonsampled claims, review our information on these
       claims (which have overpayments estimated at $19.8 million and set-aside payments
       estimated at $18.7 million), and recover any overpayments;

   •   alert IRFs to the importance of reporting the correct patient assessment instrument
       transmission dates on their claims;

   •   consider establishing a process that would allow the FISS to interface with the Database
       to identify, on a prepayment basis, IRF claims with incorrect patient assessment
       instrument transmission dates;

   •   ensure that fiscal intermediaries (1) have access to Foundation reports that document late
       or missing patient assessment instrument transmissions and (2) use these reports to
       conduct periodic postpayment reviews;

                                                6
   •   revise the FISS edit to count the discharge date as day 1 in the 27-day counting sequence
       used to apply the 25-percent payment penalty; and

   •   establish written policies to address whether patient assessment instruments that are
       retransmitted after the 27-day deadline to correct errors in the initial timely transmissions
       are subject to the 25-percent payment penalty.

CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS

In comments on our draft report, CMS concurred with our recommendations and described the
steps that it had taken or planned to take to address the issues we identified. CMS stated that it
would recover the overpayments consistent with its policies and procedures and requested that
we furnish the data necessary for it to review claims and recover the overpayments.

CMS also provided technical comments, which we addressed as appropriate. CMS’s comments,
except for technical comments, are included as Appendix C.

As requested, we provided the data necessary for CMS to initiate its review and recovery effort.




                                                 7
APPENDIXES
               APPENDIX A: SAMPLING DESIGN AND METHODOLOGY

POPULATION

The population consisted of claims for inpatient rehabilitation facility (IRF) Medicare Part A
stays during calendar years (CY) 2006 and 2007.

SAMPLING FRAME

The sampling frame was a database of 10,338 IRF claims totaling $166,014,561 for services
provided to beneficiaries in Medicare Part A stays during CYs 2006 and 2007 that were at high
risk of having been overpaid because IRFs had transmitted the patient assessment instruments to
the Centers for Medicare & Medicaid Services’ (CMS) National Assessment Collection Database
(the Database) after the 27-day deadline. We stratified the frame into two strata. Stratum 1
consisted of 8,800 claims with patient assessment instrument transmission dates of 27 days or
fewer from the discharge dates according to the IRFs but more than 27 days from the discharge
dates according to the Database. Stratum 2 consisted of 1,538 claims on which IRFs reported
transmission dates of exactly 28 days from (and including) the discharge dates.

SAMPLE UNIT

The sample unit was an IRF claim.

SAMPLE DESIGN

We used a stratified random sample.

SAMPLE SIZE

We selected a total of 200 claims: 140 from stratum 1 and 60 from stratum 2.

SOURCE OF RANDOM NUMBERS

We used the Office of Inspector General, Office of Audit Services, statistical software to generate
the random numbers.

METHOD OF SELECTING SAMPLED UNITS

We consecutively numbered the sample units in the frame from 1 to 8,800 for stratum 1 and from
1 to 1,538 for stratum 2. After generating 140 random numbers for stratum 1 and 60 for stratum
2, we selected the corresponding sample units.

ESTIMATION METHODOLOGY

We used the Office of Inspector General, Office of Audit Services, statistical software to estimate
the overpayments.
                                APPENDIX B: SAMPLE RESULTS AND ESTIMATES

                                                       Sample Results
                                                                                               Number of
                                                                                                            Amount
                                                                Number of      Overpayments    Claims Set
                        Frame      Sample          Value of                                                 Set Aside
      Stratum                                                   Claims in      for Claims in    Aside for
                         Size       Size           Sample                                                   for CMS
                                                                  Error            Error          CMS
                                                                                                             Review
                                                                                                 Review
1. Claim transmission
date ≤27 days and
Database transmission   8,800        140           $2,126,473      71             $250,677        69        $287,606
date >27 days from
discharge date
2. Claim transmission
date exactly 28 days    1,538         60            893,094        42                173,464      10         35,898
from discharge date
        Total           10,338       200           $3,019,567      113            $424,141        79        $323,504


                                                Estimated Overpayments
                                 (Limits Calculated for a 90-Percent Confidence Interval)

                                  Point estimate                        $20,203,320
                                  Lower limit                            17,471,378
                                  Upper limit                            22,935,262


                                     Estimated Amount Set Aside for CMS Review
                                 (Limits Calculated for a 90-Percent Confidence Interval)

                                 Point estimate                     $18,998,299
                                 Lower limit                            15,931,817
                                 Upper limit                            22,064,781
   APPENDIX C: CENTERS FOR MEDICARE & MEDICAID SERVICES COMMENTS
                                                          Page 1 of 5
  DEPARTMENT OF HEALTH & HUMAN SERVICES 	                                  Centers for Medicare & Medicaid Services


                                                                          Administrator
                                                                           Washington, DC 20201



DATE:
                APR 2 3 2010

TO: 	          Daniel R. Levinson


FROM:
                                ator and Chief Operating Officer

SUBJECT: 	 Office ofInspector General's Draft Report: "Nationwide Review ofInpatient
           Rehabilitation Facilities' Transmission of Patient Assessment Instruments for
           Calendar Years 2006 and 2007" (A-OI-09-00507)

The Centers for Medicare & Medicaid Services (CMS) appreciates the opportunity to respond to
the Office ofInspector General's (OIG) draft report, "Nationwide Review ofInpatient
Rehabilitation Facilities' Transmission of Patient Assessment Instruments for Calendar Years
2006 and 2007."

The objective of the review was to determine whether inpatient rehabilitation facilities (lRFs)
received reduced case mix group payments for claims with patient assessment instruments that
were transmitted to the CMS contractor's data repository more than 27 days after the
beneficiaries were discharged from an IRF. The OIG found that IRFs sometimes received the
full case mix group payment for claims associated with late patient assessment instruments. Like
the OIG, CMS is concerned that this is occurring and has already taken a number of steps to
prevent it, including developing internal systems to check the patient assessment instrument
transmission dates on the claims with the actual transmission dates. We are also exploring
whether the Recovery Audit Contractors (RACs) should conduct post-payment review ofIRF
claims to ensure appropriate application of the 25 percent payment penalty.

Payments under the IRF prospective payment system (PPS) are based on information derived
from IRF patient assessment instruments. According to the Medicare regulations in 42 Code of
Federal Regulations (CFR) section 412.614 and to our guidance published on November 1, 2001,
in CMS Transmittal A-O 1-131, IRFs must submit complete and accurate patient assessment
information on all Medicare Part A patients treated in the IRF no later than 27 calendar days
from the day of the patient's discharge from the IRF. This ensures that CMS has the necessary
information to process IRF claims. Failure to transmit the patient assessment instrument data for
a Medicare Part A patient within the required timeframes results in a 25 percent reduction to the
case mix group payment.
                                                                                        Page 2 of5


Page 2 - Daniel R. Levinson

IRFs are also required to report the date oftransmission of the patient assessment instruments on
the IRFc1aims that they submit to Medicare. CMS's payment systems compare the data
transmission date reported on the IRF claim with the discharge date on the IRF claim, and
automatically reduce the case mix group payment on the claim by 25 percentifthe transmission
date is more than 27 days from the discharge date. However, ifthe IRF records an inaccurate
date of transmission on the IRF claim that is within 27 days of the discharge date, then the
system does not apply the 25 percent payment penalty.

OIG Recommendation 1

CMS should adjust the 113 sampled claims for overpayments of $424, 141.

CMS Response

CMS concurs that the $424,141 in overpayments should be recovered. CMS plans to recover the
overpayments identified consistent with the Agency's policies and procedures. In order to
recover these overpayments CMS needs the DIG to furnish for each overpayment or potential
overpayment the data necessary (Medicare contractor numbers, provider numbers, claims
information including the paid date, HIC numbers, etc.). Once CMS receives this information
from the DIG, we will investigate these claims and facilities and collect any overpayments made.
In addition, Medicare contractor specific data should be written to separate CD-ROMs or
separate hardcopy worksheets in order to better facilitate the transfer of information to the
appropriate contractor for action.

OIG Recommendation 2

CMS should determine whether any of the $323,504 potential payment penalty should apply to
the 79 sampled claims with modified patient assessment instruments that were transmitted after
the 27 -day deadline.

CMS Response

CMS concurs withthis recommendation. CMS will review the 79 sampled claims identified by
the DIG to determine whether the data transmitted in the initial patient assessment instruments
(that were transmitted within the requited timeframes) were complete and accurate, as required
by 42 CFR section 412.614(b)(1). Based on this review, we will determine whether anyofthe
$323,504 potential payment penalty should have applied to these claims. We will then issue
guidance, in the form of a clarification of our existing policies in 42 CFR section 412.614(b)(1),
regarding how patient assessment instruments that are transmitted within the required timeframes
and subsequently resubmitted with modifications will be handled with respect to the 25 percent
payment penalty.
                                                                                        Page 3 of5



Page 3 - Daniel R. Levinson

OIG Recommendation 3

CMS should immediately reopen the 10,138 non-sampled claims, review the DIG's information
on these claims (which have overpayments estimated at $19.8 million and set-aside payments
estimated at $18.7 million), and recover any overpayments.

eMS Response

CMS concurs with comments. Upon receipt of the claims data from the OIG, CMS will take
appropriate action to review a subset of the 10,138 claims. During the course of review of the
subset of claims, CMS will collect applicable overpayments consistent with the Agency's
policies and procedures. CMS will also explore a strategy involving the RACs to review claims
for this issue after October 1, 2007. RACs review Medicare claims on a post payment basis and
are tasked with identifying underpayments and overpayments. While CMS does not mandate
areas for RAC review, we do share claims information with the RACs for possible review.

OIG Recommendation 4

CMS should alert IRFs to the importance of reporting the correct patient assessment instrument
transmission dates on their claims.

eMS Response

CMS concurs with this recommendation. CMS recently instructed its contractors to begin
sending the following alert to IRFs when they transmit late patient assessment instruments: "This
data record has been transmitted late. The transmission date must be reported on your Medicare
claim, and may result in a late transmission penalty."

We are also in the process of revising our instructions for completing IRF claims, and we will
include new language in these revised instructions to alert IRFs to the importance of reporting
the correct patient assessment instrument transmission dates on the IRF claims.

In addition, we will continue to work with IRF industry associations to reiterate the importance
of reporting the correct patient assessment instrument transmission dates on the claims.

OIG Recommendation 5

CMS should consider establishing a process that would allow the Fiscal Intermediary Shared
System (FISS) to interface with the Database to identify, on a prepayment basis, IRF claims with
incorrect patient assessment instrument transmission dates.
                                                                                         Page 4 of5



Page 4 - Daniel R. Levinson

CMS Response

eMS concurs. eMS has already developed plans toward creating this process and solicited input
from the Medicare contractors. eMS will receive official feedback on the process shortly and
will use such analysis in the development ofthe appropriate contractor instruction. Given the
need to schedule implementation of an instruction as part of the eMS Quarterly System Release
process, we envision all necessary work to develop the instruction, code it, test it and implement
it, to be completed with the July 2011 quarterly system release.

OIG Recommendation 6

eMS should ensure that fiscal intermediaries (1) have access to Foundation reports that
document late or missing patient assessment instrument transmissions and (2) use these reports
to conduct periodic postpayment reviews.

CMS Response

eMS concurs. The process referred to in the eMS Response for OIG Recommendation 5 will
make recommendation 6 unnecessary. The assessment date on the claim will be compared to the
actual assessment date within the National database. If the dates do not match, eMS will use the
actual transmission date found in the National database for purposes of whether to apply the
penalty.

OIG Recommendation 7

eMS should revise the FISS edit to count the discharge date as day 1 in the 28-day counting
sequence used to apply the 25-percent payment penalty.

CMS Response

CMS concurs. In fact, on October 5, 2009, CMS implemented a systems change that revised the FISS
edit to count the discharge date as day 1 in the 28~daycounting sequence.

OIG Recommendation 8

eMS should establish written policies to address whether patient assessment instruments that are
retransmitted after the 27-day deadline to correct errors in the initial timely transmissions are
subject to the 25-percent payment penalty.

CMS Response

eMS concurs with this recommendation. However, we believe that the written policies that the
OIG recommends would be clarifications of existing policies regarding the timely transmission
                                                                                          Page 5 of5



Page 5 - Daniel R. Levinson 


  of complete and accurate data, rather than new policies. Thus, we will issue guidance to further 

  clarify how patient assessment instruments that are transmitted within the required timeframes 

  and then subsequently resubmitted with modifications will be handled with respect to the 25 

. percent payment penalty, 


The CMS thanks the OIG for the opportunity to review and comment on this report. 

Your report supports CMS's ongoing efforts to ensure timely transmission of the IRF patient 

assessment instrument data. We look forward to continuing to work closely with the OIG on this 

issue to ensure accurate IRF PPS payments. 

